SUPREME COURT OF THE UNITED STATES

 

HOWARD GRIFFITH,
Petitioner, AFFIDAVIT OF SERVICE
BY MAIL
No. 20-6935
v.

THE PEOPLE OF THE STATE OF NEW YOUR

 

Respondant.

STATE OF NEW YORK )
)SS.:

COUNTY OF ONONDAGA )

DAWN M. KRANKING, being duly sworn, deposes and says that she is not a party to the
above-entitled action, is over eighteen (18) years of age, and is employed by the Onondaga County
District Attorney’s Office, Syracuse, New York. On the 24" day of December, 2020, deponent
served one copy of Waiver on Howard Griffin, 2903 James Street, #1R, Syracuse, NY 13206, the
address designated by said person for that purpose, by depositing same enclosed in a post-paid,
properly addressed envelope in a post office or an official depository under the exclusive care and
custody of the United States Post Office within the State of New York.

 

Subsexil and sworn to before me
this, lay of December, 2020

LLB

Notary Public, Onondaga County, NY
Commission Expires: /2
